<*. -

-.A

No. 20-1540

IN THE SUPREME COURT OF THE
UNITED STATES

VICTOR J. EDNEY JR. - PETITIONER
versus
EONDRA LAMONE HINES; OFFICER JORDAN WENKMAN; OFFICER BOBBY
I

KING; SERGEANT DAVID CONLEY; SERGEANT KEITH VAUGHAN RESPONDENTS

“ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE FIFTH CIRCUIT”

“PETITION FOR REHEARING”

PRO SE: VICTOR J. EDNEY JR.
424 Clay Ave.# 853
WACO TEXAS, 76703
(254) 424 - 6378

QUESTIONS PRESENTED FOR REVIEW
For the Supreme Court of the United States, can you grant this petition for
rehearing and after the court hears this request - call for a response to judge this
important constitutional matter that relies on your trust for the respondents who
violated the first and fourth amendments of the United States Constitution by harassing
and pressing false statements about the petitioner and his family for instance: a
911/emergency services caller whose of no relation stated Victor the petitioner was trying
to commit suicide - a frivolous libel by the respondents that led to the petitioners’ arrest
forcing the pro se petitioner to initiate this civil suit that has been previously denied in
the lower courts because he lacked knowledge of a proper motion although he followed
direct orders of the court - in which allowed the respondents to received qualified
immunity. . . the respondents received it because the petitioners' previous motions from
assumption did not meet the federal question jurisdiction requirements to be judged?
With that said, the petitioner requests for rehearing because he now has an asserted
motion of frivolous claims that meets the federal requirements that includes violations of
the constitution and Texas penal codes to prove the unethical misconduct of the
respondents who ruined the petitioner's identity and reputation locally and statewide
that is presented in good faith and not for delay.

A LIST OF ALL PARTIES TO THE PROCEEDINGS

VICTOR J. EDNEY JR. - PETITIONER
EONDRA LAMONE HINES - RESPONDENT
OFFICER JORDAN WENKMAN - RESPONDENT
OFFICER BOBBY KING - RESPONDENT
SERGEANT DAVID CONLEY - RESPONDENT
SERGEANT KEITH VAUGHAN - RESPONDENT

ii

A LIST OF ALL PROCEEDINGS IN FEDERAL, APPELLATE, SUPREME COURT OF
THE UNITED STATES

United States District Court of the Western District the Waco Division: in docket 24, 25,
26, 27, 28, Plaintiff - Victor J. Edney Jr. versus Defendants - Eondra Lamone Hines;
Officers: Jordan Wenkman, Bobby King, David Conley, and Keith Vaughn, in the Motion
of Frivolous Claims in which judgment was entered on the 26th of March 2020.

United States District Court of the Western District the Waco Division: in docket 15,19,
and 20 Plaintiff - Victor J. Edney Jr. versus Defendants - Eondra Lamone Hines;
Officers: Jordan Wenkman, Bobby King, David Conley, and Keith Vaughn, in the Motion
for Default Judgment in which judgment was entered on the 26th of March 2020.

United States Court of Appeals Fifth Circuit: in docket: no. 20-50327, Plaintiff - Victor J.
Edney Jr. versus Defendants - Eondra Lamone Hines; Officers: Jordan Wenkman, Bobby
King, David Conley, and Keith Vaughn, in the Motion of Frivolous Claims in which
judgment was entered on the 23rd of October 2020.

United States Court of Appeals Fifth Circuit: in docket'- no. 20-50327, Plaintiff - Victor J.
Edney Jr. versus Defendants - Eondra Lamone Hines; Officers: Jordan Wenkman, Bobby
King, David Conley, and Keith Vaughn, in a Petition for rehearing in which judgment
was entered on the 30th of November 2020.

iii

Supreme Court of United States: docket no. 20-1540, Petitioner - Victor J. Edney Jr.
versus Respondents - Eondra Lamone Hines! Officers: Jordan Wenkman, Bobby King,
David Conley, and Keith Vaughn. The Petition for a writ of certiorari is denied and
judgment was entered on the 28th of June 2021.
v

(

iv

)

TABLE OF CONTENTS

TABLE OF CITED AUTHORITIES

vi

CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS

Vll

JURISDICTION

Vll

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

vm

PETITION FOR REHEARING

x

MOTION OF FRIVOLOUS CLAIMS

xi

MOTION TO DEFAULT JUDGMENT

XVlll

INDEX TO APPENDICES

xx

\

V

TABLE OF CITED AUTHORITIES
PAGE NUMBER

CASES

United States District Court of the Western District the Waco Division

x

United States Court of Appeals Fifth Circuit

vn

STATUTES AND RULES
Ch. 73 Libel

IX

Civil Practice and Remedies^ Title 5. Government Liability Ch. 101. 025 - Wavier of
governmental immunity! permission to sue

IX

Ch. 105.003 Motion of frivolous claims

J

Xll

Ch. 105.002 Motion to recover

,x

Motion of default judgment Federal Rule of Civil Procedure 55

XVlll

vi

CITATIONS OF THE OFFICIAL AND UNOFFICIAL REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE

OPINIONS BELOW
In appellate court:
The opinion of the United States Court of Appeals - appears at Appendix (i) to the
petition and was reported on 23rd day of October 2020 and is unpublished.
In federal court:
The opinion of the United States District Court appears at Appendix (ii) to the
petition and was reported on the 26th day of March 2020.
JURISDICTION
In appellate courts:
The date on which the United States Courts of Appeals decided my case was the
23rd of October 2020.
No petition for rehearing was timely filed in my case. But a motion to file
rehearing and rehearing en banc out of time was filed and granted.
The petition for rehearing was denied by the United States Court of Appeals on
the 30th of November 2020 and a copy of the order denying rehearing appears at
Appendix (iii). With the above stated, the jurisdiction of this Court is invoked under 28
U. S. C. section 1254(l).

vii

THE CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED IN THE CASE

First AmpnHmpnt. to the United States Constitution' Congress shall make no law
respecting an establishment of religion or prohibiting the free exercise thereof) or
abridging the freedom of speech, or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a redress of grievances.
Texas Constitution: Article 1. Bill of rights; Sec. 8. Freedom of speech and press? Libel.
Every person shall be at liberty to speak, write or publish his opinions on any subject,
being responsible for the abuse of that privilege; and no law shall ever be passed
curtailing the liberty of speech or of the press. In prosecutions for the publication of
papers, investigating the conduct of officers, or men in public capacity, or when the
matter published is proper for public information, the truth thereof may be given in
evidence. And in all indictments for libels, the jury shall have the right to determine the
law and the facts, under the direction of the court, as in other cases.
Fourth Amendment to the United States Constitution; The right of the people to be
secure in their persons, houses, papers, and effects, against unreasonable searches and
seizures, shall not be violated, and no Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly describing the place to be searched,
and the persons or things to be seized.
Texas Constitution; Article 1. Bill of rights? Sec. 9. Searches and seizures. The people
shall be secure in their persons, houses, papers, and possessions, from all unreasonable
seizures or searches, and no warrant to search any place, or to seize any person or thing,
viii

shall issue without describing them as near as may be, nor without probable cause,
supported by oath or affirmation.
Texas Civil Practice and Remedies - TXRF,T, Ch 73.001. Elements nf Tvihpl: A libel is a
defamation expressed in written or other graphic form that tends to blacken the memory
of the dead or the tends to injure a living person’s reputation and thereby expose the
person to public hatred, contempt or ridicule, or financial injury or to impeach any
person’s, honesty, integrity, virtue, or reputation or to publish the natural defects of
anyone and thereby expose the person to public hatred, ridicule, or financial injury.
Motion of frivolous claims: Section 105.002 states: a party to a civil suit in a court of this
state brought by or against a state agency in which the agency asserts a cause of action
against the party. . . is entitled to recover, in addition to all other costs allowed by law or
rule, fees, expenses, and reasonable attorney’s fees incurred by the party in defending
the agency’s action if: (l) the court finds that the action is frivolous, unreasonable, or
without foundation; and (2) the action is dismissed or judgment is awarded to the party.
Civil Practice and Remedies: Title 5. flavemment Liability Ch. 101. 025 - Wavier of
prnvpmmental immunity: pprmissnnn to sue: states two exceptions: (a) Sovereign
immunity to suit is waived and abolished to the extent of liability created by this chapter.
(b) A person having a claim under this chapter may sue a government unit for damages
allowed by this chapter. It notes: Note 1, if a plaintiff fails to prove the existence and
violation of legal duty sufficient to impose liability under the Texas Tort Claims Act
(TTCA), sovereign immunity remains intact (Corbin v. City of Keller).

ix

Motion to recover: section 105.003. Motion of Frivolous Claim** Which states: The motion
must state if the action is dismissed or judgment is awarded to the party, the party
intends to submit a motion to the court to recover fees, expenses, and reasonable
attorney’s fees.

PETITION FOR REHEARING
To the Supreme Court of the United States: now comes Victor J. Edney Jr. pro se
petitioner who requests the court to grant this petition for rehearing to judge the
unethical behavior of the respondents who has violated the First and Fourth
Amendments of the United States Constitution with false asserted causes of actions
towards the petitioner. . . stating he was being suicidal and that his family informed the
police about the matter which led to the arrest of the petitioner - the respondent's
statements are frivolous, not true and has ruined the identity and reputation of the
petitioner statewide in Texas? This rehearing request has been made and deserves a
response because the respondents have not been properly judged for their acts because
the petitioner did not know the demands of the federal question jurisdiction to be judged
previously in the lower courts. The petitioner is now ready to present his legal statute
composed of constitutional violations, and Texas penal codes. The petitioner seeks this
judgement because his motion of frivolous claims was denied in the court of appeals the
Fifth Circuit because he did not negate the respondent’s question on qualified immunity
because he assumed he did not have to answer because it was not a direct
recommendation of denial towards his motion in the final judgement of district court
before being appealed ROA.204. The petitioner assumed and answered only the

recommended rulings of denial in the court of appeals brief that was opposed towards his
motion of frivolous claims look at appendix (i).
With that stated, the petitioner again will ask the court to rehear and pardon the
previous errors of the court too judge this motion of frivolous claims that comes next that
is limited to inventing circumstances of the substantial effect of presenting a proper and
direct motion . . . that asserts violations of the constitutional amendments of the United
States with asserted Texas penal codes to prove the existence of the respondent's conduct
that was not reasonable — towards the petitioner showing qualified immunity should not
be deserved. Following that will be the criteria of the motion to recover if this rehear
shall pass. In addition to all, a motion of default judgement will be presented on
respondent Hines to prove the assertion of the case to prevail over the respondent before
the petitioner concludes this rehearing petition that is presented in good faith and not for
delay.
MOTION OF FRIVOLOUS CLAIMS
Here comes Victor J. Edney Jr. pro se petitioner who requests the court to: grant this
motion of frivolous claims that asserts misconduct about the respondents on April 25,
2018 who has violated the First and Fourth Amendments of the United States
Constitution from a frivolous report of suicide about the petitioner from false family
members in which made the respondents report the negligible thoughts to the Texas
Department of Public Safety (TDPS) accusing the petitioner of charges based upon the
presumption of bad faith: from the Texas Commission on Law Enforcement agency
officers of Waco Texas and the “Internal Affairs and Professional Standards" of the city of
Waco Police Department who received information from some unknown person who
xi

called the emergency services dispatch at first with a drowning in progress. Next, the
unknown caller alerted a terroristic threat of the petitioner trying to commit suicide
review ROA.119-120. In the emergency services/911 sequence log the perpetrator stating
her cousin was trying to harm himself and later she states she does not know her cousin,
so she stepped back — words of the emergency dispatch - in which was falsified
statements reported - look in ROA.14-16. The petitioner had no family at the park with
him at the time nor was he suicidal in this incident — check ROA.133-134. In addition to
that Respondent Hines of the Federal Bureau of Investigations who is of no relation to
the petitioner made false allegations to other officers stating he was uncle in ROA.13.
Hines and accomplice clarified that they were family and that the petitioner was suicidal.
Officers believed Hines and the unknown caller to be the petitioners’ family and
disobeyed constitutional amendment Four and One of the United States. For the untrue
statements the respondent officers accused and arrest the petitioner for suicide after
they asked to speak with him as he stood calm compliant and answered them.
Respondents search and seized the petitioner and found the petitioner weapon. The
officers ask if the petitioner had a license and he stated yes. Following that officer did a
background check and it came back clear then the officers release the petitioner.
Afterwards, the petitioner asked officers why did they arrest and where is his property.
The officers stated your family has property. At this time, the petitioner asked what
family -1 did not come to the park with family nor did you confirm any family with me
also stating why did you give my property to strangers. One of the officers retrieved my
wallet but no weapon. The petitioner again asked - where is my weapon and I want to
speak with who’s in charge of this scene. The petitioner spoke with the sergeant about
xii

his weapon and he stated you were being suicidal and I am not giving you anything.
Later the officers exited the scene. Following the plaintiff filed a citizen’s complaint on
the officers through the WPD Internal Affairs/TCOLE in ROA.6. The Internal Affairs
agents then filed charges against the petitioner to the Texas Department of Public Safety
Regulatory Division - pressing frivolous claims . . . and in fact - was led by presumption check ROA.162-165. Heres what the respondent's stated: “To Whom it may concern, on 424-18 Waco Police Officers were called to a local park on a drowning/ attempted suicide.
When officers arrived, they found Victor Edney still in the water. Family and friends of
Edney were trying to talk him into getting out of the water but he did not get out until
the officers talked him into getting out of the water . . . Edney told officers he did not
think they were really the police even though they were in full police uniforms and
identified themselves to him as being the police. Edney also did not recognize his friends
and family and told officers that he didn’t think his mother was really his mother. He
said that his mother was someone wearing a woman suit . . . Once Edney was secured
officers they found him to have a .45 caliber derringer in the front of his pants. The
weapon was unloaded but he had numerous rounds in his pant pockets. Edney did not
tell officers he was armed nor did he tell them had a concealed carry permit.. . Family
members told officers that Edney was a schizophrenic and has PTSD and he has not been
taking his medicine for his mental condition. Family also told officers that Edney was in
the marines”. After reviewing the false allegations’, the petitioner then filed civil claims
and so far his claims have been denied for not meeting the burden of federal question
jurisdiction in the United States District Court for the Western District of Texas in the
Waco Division ROA. 1-225. and in the United States Court of Appeals the Fifth Circuit.
xiii

And currently, the petitioner now insists his motion of frivolous claims has met the
burden of federal question jurisdiction and would like for the court to rehear this case
because the respondents pressed their assumption without any positive foundation
leaving the plaintiff liable for acts he did not commit. And since the petitioner did not
commit any of the acts stated * a reversal of judgement should be awarded after the
response of the respondents who acted unethical within this case.
Here are facts that justify the petitioner's motion of frivolous claims and they are
presented concisely with established constitution rights to show the respondents conduct
was not reasonable and they are addressed with the Texas penal code violations to assert
the frivolous causes of action^
Respondents Hines - The Federal Bureau of Investigations officer violated the first
amendment of the United States Constitution freedom of speech and press - for making
a false report to peace officers. Hines told officers he was an uncle to the petitioner and
the officers believed the frivolous remark and pressed it violating Texas penal code
section 37.08 false report to peace officer review ROA.122-123.
Respondents King and Wenkman - disobeyed the fourth amendment of the United States
Constitution search and seizure by tackling and arresting the petitioner who was accused
of drowning and suicide as he stood calm and compliant when the officers view him on
the Brazos riverbank. - With that said, the petitioner will apply the plain view doctrine
for the unreasonableness of seizure, because the officers in the witness statements stated
they only seen a man at the riverbanks edge. The officers viewed no ill-manner actions
from the petitioner, but they attacked and assaulted the plaintiff based on hearsay violating the Texas penal code section 22.01 for assault by arresting the plaintiff for
xiv

suicide without proof beyond a reasonable doubt — look at ROA.137. This incident started
because some perpetrator called in a terroristic threat of suicide, but initially - they
called in a drowning to the emergency services dispatch look in ROA.119-120 (the
perpetrator caller stated she doesn’t know her cousin, so she stepped back - words of the
emergency dispatch). In ROA.123 officer Wenkman in a witness statement - stated after
determining that Edney was neither a threat to himself or others they had no other
reason but to release him from custody. For the reasons stated, the officers do not
deserve qualified immunity and sovereign immunity should not stay intact and this case
should be reheard and this court and the respondent should give a response.
Respondents Conley - After being released from custody the petitioner asked the
sergeant on duty at the scene about his property taken and about what was going on . ..
like being arrested - and Sergeant Conley stated, your family has your property. The
plaintiff then stated what family -1 did not come to the park with family nor have I
briefed any family with you. The petitioner also stated, how do you know my family - that
could be anyone - while giving examples. Conley told me to wait here and Wenkman went
around the police vehicle too retrieved the plaintiff belongings in which he came back
with just the wallet. I then stated wears my other belongings (weapon) and he stated you
will get it when you go home because you were being suicidal. The petitioner then asked,
Conley - who stated that about me! But no answer was received from Conley. All he
stated was, he was not going to give me anything back because of your suicidal mental
state. Conley violated the first amendment of the United States Constitution - freedom of
speech and press and the fourth amendment - freedom to seizure — he humiliated the
petitioner with the libel of suicide in park and gave the petitioners’ property to a stranger
xv

respondent Hines. He nor any of the police officers saw the petitioner being suicidal nor
did the officers on scene sign statements about the petitioner being suicidal. Why alert
non-factual statements publicly about the petitioner being suicidal. The petitioner and
the court - now share facts from officer Wenkman’s witness statement in ROA.11-13 that states! the petitioner was neither a threat to himself or others and finding no other
reason to take him into custody. For the stated, Conley does not deserve qualified
immunity for speaking and pressing the non-factual suicidal statement about the
petitioner publicly. He deserves a violation of official oppression of the Texas penal code
39.03 - because he deprived the petitioner of his liberty to speak, and to resolve the issue
at hand, and to have knowledge about the situation that occurred.
Respondents Wenkman - violated the first amendment of the constitution - he committed
perjury of the Texas penal code 37.02 by providing false statements to fellow officers in
the WPD incident report that is on record in the ROA. 123 (mainly about the petitioners’
family and his beliefs - like, the petitioners’ mother and uncle showed on scene (which is
not true) or about the petitioner stating they were not the police several times in which is
not true. . . the petitioner once asked the police to show themselves because it was dark
outside and they did compliantly — showing themselves with flash lights. And for the
court if you could check all the body warn cameras and the surveillance patrol vehicles
footage - the court will be able to justify the petitioner statements. For the stated,
Wenkman does not deserve qualified immunity and sovereign immunity should not stay
intact.
Respondents Vaughan - of the “Internal Affairs/ Professional Standards” unit of W.P.D.:
allowed the Waco police department (WPD), officers and the "Internal Affairs Unit" to
xvi

charge the plaintiff with the frivolous and unreasonable crime of suicide that was falsely
reported to WPD officers in which has been submitted in bad faith to the Texas
department of public safety’s regulatory services division in a revocation affidavit in the
ROA. 17-19. Vaughan does not deserve qualified immunity for his acts of negligence in
not investigating this incident of assumed suicide. The petitioner did not try to commit
suicide nor did the petitioners’ family inform the police about him being suicidal in any
way ROA. WPD officers in witness statements did not even report they scene the
petitioner trying to commit suicide nor did they hear the petitioner state he was going to
commit suicide ROA . . . with that said, Vaughn presented frivolous facts in the charging
affidavit. He violated the first amendment of the United States Constitution - rights of
freedom of speech and press, committing perjury in the Texas penal code 37.02. For the
actions of Vaughan this court should rehear and respond to this request.
As the petition concludes, if his motion of frivolous claims is awarded - the
petitioner will submit a motion to the court to recover under Ch. 105.002 of the Texas
Civil Practices and Remedies for fees, expenses: for “Governmental Liability” - in the
Texas Tort claims, for the respondents' libelous acts towards the petitioner that has
ruined his reputation locally and statewide exposing him to public hatred based on
hearsay. The respondent officers do not deserve qualified immunity and according to the
applicable Texas statute under “Governmental Liability” Title 5 Ch. 101.025: Wavier of
Governmental Immunity; Permission to Sue - whereas respondents’ sovereign immunity
should not remain intact (Corbin v. City of Keller). And this case should be heard in this
court as its’ presented in good faith.

xvii

MOTION TO DEFAULT JUDGMENT
Now comes Victor J. Edney Jr., petitioner pro se who requests the clerk of the
court to enter the Federal Bureau of Investigations special agent respondent Hines as
default judgment for failure to plead because the respondent did not appear in court.
Hine was summons and served by a process server on the 9th of January 2019 - ROA.34.
The court should grant this motion for default judgement rule 55 that alerts defendants
have 21 calendar days to file an answer after they are served with the compliant. The
petitioner summons Hines for violating the first amendment of the United States
Constitution freedom of speech and press - for making false reports to peace officers.
Hines told officers he was an uncle to the petitioner and the officers believed the frivolous
remark and pressed it violating Texas penal code section 37.08 false report to peace
officer review ROA.122-123. In addition to that, Hines and accomplice harassed the
petitioner violating section 42.07 of the Texas penal code for alarming peace officers
about the frivolous libel of the petitioner trying to commit suicide in which caused the
other respondents to act with negligence ruining the reputation of the petition that
caused this frivolous claim and civil suit. For Hines remarks and the federal government
he is liable for the negligence to the municipal and Texas. With the stated, the petitioner
request relief ofi one hundred and fifty thousand dollars for violating the first
constitutional amendment of the United States the frivolous reported to the Waco PD
officers and for harassing.
CONCULSION

xviii

I declare under penalty of perjury that the petition for rehearing is presented in good
faith and not for delay. The petitioner now requests for a response to this matter at hand
. .. alerting its’ grounds are limited to intervening circumstances of a substantial or
controlling effect of the lower courts which is the presentation of a proper motion of
frivolous claims that asserts constitutional violations to ensure the federal question
jurisdiction burden has been met to be judge for the unethical behavior of the respondent
present.
Respectfully submitted,
On the 13th of August 2021

PRO SE: Victor J. Edney Jr.
424 Clay Ave. # 853
Waco Texas
(254) 424-6378

l

xix

Additional material
from this filing is
available in the
Clerk's Office.

